TABLE OF APPENDIES
APPENDIX A – DISTRICT COURT ORDER............................................................. 1a
APPENDIX B – DISTRICT COURT OPINION ......................................................... 3a
APPENDIX C – CIRCUIT COURT ORDER............................................................. 15a
APPENDIX D – MICHIGAN COURT OF APPEALS ORDER ................................ 16a
APPENDIX E – MICHIGAN SUPREME COURT ORDER ..................................... 18a
APPENDIX F – MORTGAGE .................................................................................. 20a
APPENDIX G – SHERIFF’S DEED ......................................................................... 32a
APPENDIX H – DIVORCE DECREE....................................................................... 44a
APPENDIX J – MORTAGE ASSIGNMENT ............................................................ 48a

1a

APPENDIX A
STATE OF MICHIGAN
JUDICIAL DISTRICT
JUDGMENT OF POSSESSION
17TH DISTRICT COURT
17TH

CASE NO.
17-69348-LT

313-387-2790
DISTRICT COURT, 1511 BEECH DALY, REDFORD, MI 48239

Plainiff
KONDAUR CAPITAL CORPORATION
c/o Plaintiff’s Attorney
Steven A. Jacobs (P68749)
Jienelle R. Alvarado (P71924)
SCHNIEDERMAN & SHERMAN, P.C.
23938 Research Drive, Suite 300
Farmington Hills, MI 48335
248-539-7400
Plaintiff/Attorney

x Personal Service

Crystal N. Hopkins (P70792)
Attorney for LaDawn Douglas and all
other occupants
P.O. Box 2141
Royal Oak, MI 48068
248-669-7400
Defendant/Attorney

x Personal Service

V

Defendant
CLIFFORD DOUGLAS, JR.
And all other occupants
9567 LENORE
REDFORD, MI 48239
THE COURT FINDS:
by
x hearing
default
consent**

*For a denfendant on active military duty,
default judgment shall not be entered except
as provided by the Servicemembers
Civil Relief Act.

POSSESSION JUDGMENT
x 1. The plaintiff has a right to
possession.
2. There is rent due to plaintiff:
a. Rent to retain possession $
b. Costs
$
c. Total
$
3. The defendant has a right to
possession.

TO THE DEFENDANT
4. __ a. An order evicting you will be issued unless you pay the plaintiff or the court
the amount due in item 2c. above or unless you move out on or before_____________.
Date

OR
x b. The plaintiff can apply for an order evicting the defendant if the defendant
does not
move out on or before 7-10-17
x 5. You may be liable for money damages after you move if additional rent is
owed or if
there is damage to the property.
___ 6. Acceptance of partial payment of the total amount due in item 2.c. above
__ will __ will not prevent a writ of restitution from being issued.

2a

x 7. No money judgment is entered at this time.
MONEY JUDGMENT
___ 8. A possession judgment was previously entered.
___ 9. A money judgment is entered as follows:
a. Damages
b. Costs
This judgment will earn interest at statutory rates. c. Total

$_________
$_________
$_________

10. FURTHER ORDERS: Plaintiff’s Motion for Possession is granted.
11. YOU ARE ADVISED that you may file a motion for a new trial, a motion to set
aside a default judgment, or file an appeal and appeal bond. This must comply with
all court rules and must be filed in court by 7-10-17.
You may want legal help.
__ MCR 4.201(I) was explained to all parties.
6/28/17
Date

/s/ illegible
P
Judge
Bar no.

CERTIFICATE OF MAILING: I certify that on
this date a copy of the above judgment was mailed
to the plaintiff and defendant at their last known
addresses, by ordinary mail, unless otherwise
indicated.
6.28.17
/s/ illegible
Date

Deputy clerk

**Approved:
__________ __________________

Date

Plaintiff/Attorney

Date

Defendant/Attorney

__________ __________________

MCR 4.201(K)(I)(d) 50 USC 521 KCC.000032

3a

APPENDIX B

STATE OF MICHIGAN
IN THE
DISTRICT COURT FOR THE COUNTY OF WAYNE
KONDAUR CAPTIAL CORPORATION,
Plaintiff,
17TH

v
CLIFFORD DOUGLAS, JR. and
ALL OTHER OCCUPANTS,

Case No.

17-69348-LT
17-010403-AV

Defendant.
____________________________________________/
MOTION HEARING
BEFORE THE HONARABLE CHARLOTTE L. WIRTH, DISTRICT JUDGE
Redford Township, Michigan – Wednesday, June 28, 2017
APPEARANCES:
For the Plaintiff:
JIENELLE R. ALVARADO (P71924)
Schneiderman & Sherman P.C.
23938 Research Drive, Suite 30
Bingham Farms, Michigan 48025
(248) 539-7400

For the Defendant:

CRYSTAL N. HOPKINS (P70792)
P.O. Box 2141
Royal Oak, Michigan 4806871
(248) 699-7400

Recorded by/Transcribed by:

Karen L. Green, CER 8000
(313) 387-2721

4a

-

1 -

TABLE OF CONTENTS

WITNESSES:

PLAINTIFF

PAGE

PLAINTIFF

PAGE

None

WITNESSES:
None

EXHIBITS:
None

IDENTIFIED

RECEIVED

5a

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

- 2 Redford Township, Michigan
Wednesday, June 28, 2017 – 1:55 p.m.
THE COURT:
Are we ready on Kondaur Capital
versus Clifford Douglas and All Other Occupants at 9567
Lenore?
MS. HOPKINS:
Yes, ready, Your Honor. Good
afternoon, Your Honor.
THE COURT:
Good afternoon. If you can enter
your appearance, please?
MS. ALVARADO: Yeah, Jienelle Alvarado appearing
on behalf of Plaintiff, P17924
MS. HOPKINS:
and Crystal Hopkins on behalf of
occupant, LaDawn Douglas, P70792.
THE COURT:
All right, and this was a motion for
a possession with a response that was filed. Has there
been anything proceeding in the other Court yet?
MS. ALVARADO: Um- -a Motion to Dismiss has been
filed, I’m not sure if a hearing has been scheduled or not.
(inaudible) oh, we did file that motion.
THE COURT:
And that’s in Federal Court now?
MS. ALVARADO: Yes, correct.
MS. HOPKINS:
I don’t believe a hearing’s been set on that
motion (inaudible)
THE COURT:
To dismiss. But there was never any
stay or anything issued- -

3 -

6a

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

MS. HOPKINS:
No, but they have been entered. I
did file a motion to- -a motion for the stay. I did file,
belated, I just got in today, but I did file a motion.
THE COURT:
For what?
MS. HOPKINS:
The stay in the Federal Court.
MS. ALVARADO: But a stay hasn’t been- MS. HOPKINS:
But it has not been entered, Your
Honor.
THE COURT:
Okay. All right, and I did have an
opportunity to read the judg- -or read the response. You
did get a copy of the response; right?
MS. ALVARADO: Yes.
THE COURT:
Okay, and I- -‘cause it came in a bit
later, and I had a change to read the motion and the
response, anything else that needs to be added other than
what’s in the pleadings, or what’s in this motion and the
response?
MS. ALVARADO: No, not- -nothing um- -needs to be
added. I know this has been argued at previous times
before Your Honor, and the main issue is this case is that
Quit Claim Deed and that- -Quit Claim Deed from the husband
to- -to the current Defendant, and she takes- -the Defendant
takes (inaudible) to the husband having her interest
subject to the mortgage, and um- -when the mortgage was
foreclosed, her interest was extinguished by- -by the
-

4 -

7a

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

foreclosure, and as I know has been brought up before and
has been stat in the motion and brief, there’s- -Defendant
has not shown what um- -what provision of foreclosure by
Advertisement Statute has been violated, specifically; has
Not shown that one has been violated, and has not shown how
she was prejudiced by that violation of the um- -Foreclosure
by advertisement Statute and for those reasons, we rely on
the information provided in the motion and brief, unless
Your Honor has further questions.
THE COURT:
No, that’s okay. Anything else then?
MS. HOPKINS:
Yes, Your Honor. I think the main
issue here is that we’re skipping over Michigan Law, which
is recited not only on the secondoor- -in secondary
authority, which is Michigan Civil Jurisprudence for
Mortgages, section 131, but also in Bank of America NA
Versus First American Title Insurance Company, that’s at
499- -499 Mich App um- -499 Mich- -I’ve been looking at the
Short cite right now, so Your Honor, I’ll- -I’ll find the
full cite and I’ll give it to you, but it’s on page 828 of
that particular case. This is a 2015 case, Your Honor, and
it says very clearly foreclosure by advertisement, even
though it is Statutory, is granted contractually by the
mortgagor and it only exist to determine the right between
the mortgagee and the mortgagor. That is a defect or/and- and irregularity in the foreclosure procedure, Your Honor,
-

5 -

8a

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

because LaDawn Douglas was neither the mortgagee nor the
mortgagor. There’s no dispute that Kondaur is the
mortgagee. The problem is LaDawn Douglas is not the
mortgagor and she never was, and this argument that she
takes subject to a Quit Claim Deed; Your Honor, she took
the- -the property subject to a divorce decree, which was
prior to the Quit Claim Deed, and- THE COURT:
Are you saying that she’s not- -that
by Quit Claim Deed or by the divorce judgment, that she’s
not taking it subject to the mortgage? That he’s giving
her more right in the property than he really has?
MS. HOPKINS:
Well, Your Honor, what I’m saying
is that that may be the normal case, but in this par- -that
means that she should have been foreclosed judicially,
because also, Your Honor, Michigan Law also says- -this is
setting aside or adjudicating invalidity of foreclosure;
this is at 10(A). Michigan Pleading and Practice, section
74:54. If a nonjudicial foreclosure sale is void for
defect or irregularity such as the parties to the mortgage
are not the parties that were foreclosed upon, then any
party adversely affected, such as my client, LaDawn Douglas
is entitled to have a court adjudicated- -adjudicate its
validity and equity. Now my client did not have that
right, Your Honor, because they foreclosed by
advertisement. Had they foreclosed judicially, Your Honor,
-

6 -

9a

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

she would have had that right. I’m not saying that they
don’t have the right to foreclose the mortgage- THE COURT:
Well- MS. HOPKINS:
I’m only saying they don’t have the
Right to foreclose it nonjudicially against LaDawn Douglas,
and then come into this Court, in a Court of Equity with
unclean hands, and ask this Court to- -to allow them to take
possession from someone who they denied due process. They
knew that she was not a party to the mortgage, Your Honor,
because when she tried- -and myself tried to contact the
foreclosing forms- -firm- -law firm prior to the Sheriff’s
sale they would not speak to her, because she was not a
party to the mortgage.
THE COURT:
Well she can’t get it both ways. She
can’t say I’m not a party to the mortgage, but want the
benefit of- -of being able to deal with them on the
mortgage. You can’t- -she’s either got to assume it, or
she’s- -can’t talk to ‘em, or she has to get permission one
way or another.
MS. HOPKINS:
Well, Your Honor, neit- -I say that
They can’t have it both ways. They want to not let her
Speak on behalf and try to preserve her interest- THE COURT:
Okay.
MS. HOPKINS:
- -but then take the shortcut to
simply foreclose her interests for their convenience. It
-

7 -

10a

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

too- -it was inconvenient for them to file a lawsuit to go
to court.
THE COURT:
How many years- -how many years did
she make payment on the mortgage?
MS. HOPKINS:
I don’t know, Your Honor.
THE COURT:
Well she made payments on the
Mortgage; right? You acknowledge that, because it was from
2011, ‘till- -and they didn’t foreclose until last year, so I mean- MS. HOPKINS:
That was- THE COURT:
Somebody somewhere along the way made
Four or five years of payments, I imagine.
MS. HOPKINS:
This is true, Your Honor. Again,
I- -I assert that that’s again irrelevant in this context,
only because they wouldn’t speak to her when she tried to
preserve her interest in the property.
THE COURT:
Okay.
MS. HOPKINS:
--but they could take her payments?
Again, Your Honor, it’s inequitable.
THE COURT:
Okay. All right, well I’m ready to
Make my ruling in this matter. This was a Motion for
Possession under 4.201(J), Michigan Court Rules. I know
Defense raised that it was somewhat more like a Summary
Disposition Motion, it is a dispositive motion, certainly,
and she said it should fall under those, but even using
-

8 -

11a

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

those standards, ah- -I’ll even use those to say that
there’s no triable issue of fact is- -was basically or fact
or law is what they’re saying.
Um- -there’s no question as far as the matter of fact,
That LaDawn Douglas was granted the property in a divorce
Settlement by the person who had mortgaged the property,
Who was Clifford Douglas, Junior, who’s now her ex-husband.
Then she received a Quit Claim Deed later, basically
stating the same thing was stated in the divorce
judgment; that she received the property through Quit Claim
Deed and through the divorce judgement from him.
The- -the issue that she isn’t subject to the mortgage
Because she didn’t sign the mortgage, doesn’t stand in
Terms of matter of law. There is- -by receiving- -by Quit
Claim Deed or through the Judgment of Divorce, she only
Receives the interest of the grantor. And a case was
Cited, a 1951 case, I think it was Dodd versus Reed that
Was cited in there for their brief as well.
You know if she was unaware of the mortgage by fraud
Of her husband; in other words, if he did not disclose to
her that there was a mortgage, told her it was fee and
clear, and when she made her settlement she thought she was
getting the property free and clear, then would have a
fraud action against him. That doesn’t have an action
against the mortgage company, that would be an action
-

9 -

12a

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

against her husband or now her ex-husband, but somebody
says she’s made payments. Obviously between 2011 and
whenever it was foreclosed, somebody was making payments,
so she must have been aware of the mortgage itself, so that
would go towards the claim of fraud, but it would have
nothing to do with them.
You know, it’s well established property law that he
can’t give away what he doesn’t own. For her to say that I
own the property free and clear, and I’m not subject to the
mortgage, um- -doesn’t make any sense. It doesn’t make any
sense in law or in common sense. It’s been long
established a Quit Claim Deed gives whatever interest that
person has. It’s not a Warranty Deed, if it was a Warranty
Deed and he- -she (sic) didn’t say anything about the
mortgage, you know she would have an action for fraud
against him, but not against the mortgage company.
It’s just like when parties come in here on credit
Cards, where both of them have taken out a credit card,
They get divorced and one of the them assumes the credit card
Bill in the Divorce Judgement, that doesn’t apply to the
Underlying creditor, and people don’t understand that
Sometimes, and that’s where probably the confusion is.
So ah- -you know certainly he can’t make the mortgage
go away just by Quit Claim Deeding the property to somebody
else or everybody could do that, there would be no valid
-

10 -

13a

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

mortgage at all. Like I said, if she was deceived about
not having a mortgage, then her issue is really with him.
Um- -so I’m going to grant the Motion for Possession,
and I think there’s a ten day period. Do you have an or- did you have an Order?
MS. ALVARADO: I do. I have a proposed Judgment
of Possession and at the bottom it states it’s further
ordered the Motion for Judgment of Possession is granted,
and the Writ um- -can issue after July 10th, 2017.
THE COURT:
Okay.
MS. ALVARADO: If I may um- -present the Order,
Your Honor.
THE COURT:
And what was the date?
MS. ALVARADO: July 10th, that would be a Monday.
THE COURT:
Okay, right, that’s the date that I
Have as well, because it falls on a weekend otherwise.
MS. ALVARADO: Right.
THE COURT:
You can give that to the clerk and
she’ll pass that up.
MS. ALVARADO: Thank you.
THE COURT:
Okay. All right, and ah- -she’ll make
True copies of that and then she’ll give you that for your
Records. Thank you.
MS. ALVARADO: Thank you, Your Honor.
(At 2:06 p.m., proceeding concluded)
- 11 -

14a

STATE OF MICHIGAN )
)
COUNTY OF WAYNE

)

I certify that this transcript, consisting of 12 pages, is
a full, true and complete transcript of the proceeding and
testimony take in this case on Wednesday, June 28, 2017.

_______________________________
Date

________________________________
Signature

Karen L. Green, CER 8000
17th District Court
15111 Beech Daly Road
Redford, Michigan 48239
(313) 387-2721

15a

APPENDIX C
STATE OF MICHIGAN
IN THE CIRUIT COURT FOR THE COUNTY OF WAYNE
KONDAUR CAPITAL CORPORATION

-vs-

Case No. 17-010403-AV
JUDGE BRIAN R. SULLIVAN

Plaintiff-Appellee,

CLIFFORD DOUGLAS, JR. and any and
all other occupants 9567 Lenore, Redford,
Michigan 48329,
and
ANY AND ALL OTHER OCCUPANTS AND
OCCUPANT LADAWN DOUGLAS,
Defendant/Occupants/Appellants.
______________________________________________/
ORDER DISMISSING APPEAL
At a session of said Court, held in the City of
Detroit, County of Wayne, State of Michigan
on: __________1/15/2019__________________
PRESENT: HONORABLE BRIAN R. SULLIVAN
After giving the parties the time and opportunity to resolve the matters and
the parties proceeding on the appeal, the court concludes relief in appellant’s appeal
is denied for the reasons stated in Appellee, Kondaur Capital Corporations, brief and
the appeal is dismissed;
IT IS SO ORDERED.
/s/ Brian R. Sullivan 1/15/2019
BRIAN R. SULLIVAN
Circuit Court Judge

16a

APPENDIX D
Court of Appeals, State of Michigan
ORDER
Kondaur Capital Corporation v Clifford Douglas Jr

Christopher M. Murray
Presiding

Docket No. 347596

Cynthia Diane Stephens

Anica Letica
Judges
___________________________________________________________________
LC No.

17-010403-AV

The Court orders that the motion for immediate consideration is GRANTED.
The motion to waive fees is GRANTED for this case only.
The delayed application for leave to appeal is denied for lack of merit in the grounds
presented.
The motion to remand is DENIED.
The motion to waive the order requirement of MCR 7.209 is GRANTED.
The motion for stay pending appeal is DENIED.

17a

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on
APR 08 2019
Date

/s/ Jerome W. Zimmer Jr.
Chief Clerk

18a

APPENDIX E
Order

Michigan Supreme Court
Lansing, Michigan

December 23, 2019

Bridget M. McCormack,
Chief Judge

159632

David F. Viviano,
Chief Justice Pro Tem
KONDAUR CAPITAL CORPORATION,
Plaintiff-Appellee,

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh
Justices

v
CLIFFORD DOUGLAS, JR.
Defendant,
and

SC: 159632
COA: 347596
Wayne CC: 17-010403-AV

LADAWN DOUGLAS,
Defendant-Appellant.
____________________________________________/
On order of the Court, the application for leave to appeal the April 8, 2019
order of the Court of Appeals is considered, and it is DENIED, because we are not
persuaded that the questions presented should be reviewed by this Court.

19a

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the foregoing
is true and complete copy of the order entered at the direction of the Court.
December 23, 2019

/s/ Larry S. Royster
Clerk

20a

2009 FEB – 6 AM 10:27

APPENDIX F

2009 MAY 11 PM 12:12
Bernard J. Youngblood
Wayne County Register of Deeds
May 11, 2009 12:12 PM
Liber 47905 Page 417-423
#209193687 MTG FEE: $33.00

MORTGAGE
State of Michigan
LOAN# 889000031

FHA Case Number
264-002763-8-7

PARCEL TAX ID#: 79-045-01-0508-000
Recordation Requested by:
MVB MORTGAGE CORPORATION
24400 NORTHWESTERN HIGHWAY
SUITE 200
SOUTHFIELD, MI 48075
When Recorded Mail to: VINCE PARARELLI
MVB MORTGAGE CORPORATION
24400 NORTHWESTERN HIGHWAY
SUITE 200
SOUTHFIELD, MI 48075
Send Tax Notices to:
MVB MORTGAGE CORPORATION
24400 NORTHWESTERN HIGHWAY
SUITE 200
SOUTHFIELD, MI 48075
THIS MORTGAGE (‘Security Instrument’) is given on January 9th, 2009.
The mortgagor is CLIFFORD DOUGLAS JR, A MARRIED MAN

21a

whose address is 11547 CARDWELL, LIVONIA, MI 48150
(‘Borrower’). This Security Instrument is given to MVB MORTGAGE
CORPORATION, AN OHIO CORPORATION
which is organized and existing under the laws of THE STATE OHIO, and whose
address is 24400 NORTHWESTERN HIGHWAY, SUITE 200, SOUTHFIELD,
MI 48075
(‘Lender’). Borrower owes Lender the principle sum of FORTY NINE THOUSAND
TWO HUNDRED THIRTY TWO AND NO/100 Dollars (U.S. $ 49,232.00).
This debt is evidenced by Borrower’s note dated he same date as this Security
Instrument (‘Note’), which provides monthly payments, with the full debt, if not
paid earlier, due and payable on February 1st, 2039. This Security Instrument
secures the Lender: (a) the repayment of the debt evidenced by the Note, with
interest, and all renewals, extensions and modifications of the Note; (b) the
payment of all other sums, with interest, advanced under paragraph 7 to protect the
security of this Security Instrument; and (c) the performance of Borrower’s
covenants and agreements under this Security
MICHIGAN – Single Family – FHA SECURITY INSTRUMENT – 1/96
GCC – 1590-1MI (03/98)
Page 1 of 7
Initials: _CD__

47905 – P 418
Instrument and the Note. For this purpose, Borrower does hereby mortgage,
warrant, grant and convey to Lender, with power of sale, the following described
property located in WAYNE County, Michigan: LOT(S) 508, DUNNING PARK
SUBDIVISION, ACCORDING TO THE RECORDED PLAY THEREOF, AS
RECORDED IN LIBER 55 OF PLATS, PAGE 27.
79-045-01-0508-000
which has the address of 9567 LENORE, REDFORD [Street, City],
Michigan 48239 [Zip Code] (‘Property Address’);
TOGETHER WITH all the improvements now or hereafter erected on the property,
and all easements, appurtenances, and fixtures now or hereafter a part of the
property. All replacements and additions shall also be covered by the Security

22a

Instrument. All of the foregoing is referred to in this Security Instrument as the
“Property.”
BORROWER COVENANTS that Borrower is lawfully seized of the estate hereby
conveyed and has the right to mortgage, grant and convey the Property and that the
Property is unencumbered, except for encumbrances of record. THIS SECURITY
INSTRUMENT combines uniform covenants for national use and non-uniform
covenants with limited variations by jurisdiction to constitute a uniform security
instrument covering real property.
UNIFORM COVENANTS. Borrower and Lender covenant and agree as follows: ‘
1. Payment of Principal, Interest and Late Charge. Borrower shall
pay when due the principal of, and interest on, the debt evidenced by the Note and
late charges due under the Note.
2. Monthly Payments of Taxes, Insurance and Other Charges.
Borrower shall include in each monthly payment, together with the principal and
interest as set forth in the Note and any late charges, a sum of (a) taxes and special
assessments levied or to be levied against the Property, (b) leasehold payments or
ground rents on the Property, and (c) premiums for insurance required under
paragraph 4. In any year in which the Lender must pay a mortgage insurance
premium to the Secretary of Housing and Urban Development (‘Secretary’), or in
any year in which such premium would have been required if Lender still held the
Security Instrument, each monthly payment shall also include either; (i) a sum for
the annual mortgage insurance premium to be paid by Lender to the Secretary, or
(ii) a monthly charge instead of a mortgage insurance premium if this Security
Instrument is held by the Secretary, in a reasonable amount to be determined by
the Secretary. Except for the monthly charge by the Secretary, these items are
called ‘Escrow Items’ and the sums paid to Lender are called ‘Escrow Funds’.
Lender may, at any time, collect and hold amounts for Escrow Items in an
aggregate amount not to exceed the maximum amount that may be required for
Borrower’s escrow account under the Real Estate Settlement Procedures of 1974, 12
U.S.C. section 2601 et seq. and implementing regulations, 24 CFR Part 3500, as
they may be amended from time to time ‘(RESPA’), except that the cushion or
reserve permitted by RESPA for unanticipated disbursements or disbursements
before the Borrower’s payments are available in the account may not be based on
amounts due for the mortgage insurance premium.
If the amounts held by Lender for Escrow Items exceed the amounts permitted
to be held by RESPA, Lender shall account to Borrower for the excess funds as
required by RESPA. If the amounts of funds held by lender at any time are not
sufficient to pay the Escrow Items when due, Lender may notify the Borrower and
require Borrower to make up the shortage as permitted by RESPA.
The Escrow Funds are pledged as additional security for all sums secured by the
Security Instrument. If Borrower tenders to Lender the full payment of all such
sums, Borrower’s account shall be credited with the balance remaining for all

23a

installment items (a), (b) and (c) and any mortgage insurance premium installment
that Lender has not become obligated to pay to the Secretary, and Lender shall
promptly refund any excess funds to Borrower. Immediately prior to a foreclosure
sale of the Property or its acquisition by Lender, Borrower’s account shall be
credited with any balance remaining for all installments for items (a), (b) and (c).
3. Application of Payments. All payments under paragraphs 1 and 2 shall
be applied by lender as follows:
First, to the mortgage insurance premium to be paid by Lender to the Secretary or
to the monthly charge by the Secretary instead of the monthly mortgage insurance
premium;
Second, to any taxes, special assessments, leasehold payments or ground rents, and
fire, flood and other hazard insurance premiums, as required.
Third, to interest due under the Note.
Fourth, to amortization of the principal of the Note; and
Fifth, to late charges due under the Note.
GCC-1590-2MI (08/97)

Page 2 of 7

Initials: _CD__

L 47905 – P 419
4. Fire, Flood and Other Hazard Insurance. Borrower shall insure all
improvements on the Property, whether now in existence or subsequently erected,
against any hazards, casualties, and contingencies, including fire, for which Lender
requires insurance. This insurance shall be maintained in the amounts and for the
periods that Lender requires. Borrower shall also insure all improvements on the
Property, whether now in existence or subsequently erected, against loss by floods
to the extent required by the Secretary. All insurance shall be carried with
companies approved by Lender. The insurance policies and any renewals shall be
held by Lender and shall include loss payable clauses in favor of, and in a form
acceptable to Lender.
In the event of loss, Borrower shall five Lender immediate notice by mail.
Lender may make proof of loss if not made promptly by Borrower. Each insurance
company concerned is hereby authorized and directed to make payment for such
loss directly to Lender, instead of to Borrower and to Lender jointly. All or any part
of the insurance proceeds may be applied by Lender, at its option, either (a) to the
reduction of the indebtedness under the Note and this Security Instrument, first to
any delinquent amounts applied in the order in paragraph 3, and then to
prepayment of principal, or (b) to the restoration or repair of the damaged Property.
Any application of the proceeds to the principal shall not extend or postpone the due
date of the monthly payments which are referred to in paragraph 2, or change the
amount of such payments. Any excess insurance proceeds over an amount required

24a

to pay all outstanding indebtedness under the Note and this Security Instrument
shall be paid to the entity legally entitled thereto.
In the event of foreclosure of the Security Instrument or other transfer of title to
the Property that extinguished the indebtedness, all right, title and interest of
Borrower in and to insurance policies in force shall pass to the purchaser.
5. Occupancy, Preservation, Maintenance and Protection of the
Property; Borrower’s Loan Application; Leaseholds. Borrower shall occupy,
establish, and use the Property as Borrower’s principal residence within sixty days
after the execution of the Security Instrument (or within sixty days of a later sale or
transfer of the Property) and shall continue to occupy the Property as Borrower’s
principal residence for at least one year after the date of occupancy, unless Lender
determines this requirement will cause undue hardship for Borrower, or unless
extenuating circumstances exist which are beyond Borrower’s control. Borrower
shall notify Lender of any extenuating circumstances. Borrower shall not commit
waste or destroy, damage or substantially change the Property or allow the
Property to deteriorate, reasonable wear and tear excepted. Lender may inspect the
Property if the Property is vacant or abandoned or the loan is in default. Lender
may take reasonable action to protect and preserve such vacant or abandoned
Property. Borrower shall also be in default if Borrower, during the loan application
process, gave materially false or inaccurate information or statements to Lender (or
failed to provide Lender with any material information) in connection with the loan
evidenced by the Note, including, but not limited to, representations concerning
Borrower’s occupancy of the Property as a principal residence. If this Security
Instrument is on a leasehold, Borrower shall comply with the provisions of the
lease. If Borrower acquires fee title to the Property, the leasehold and fee title shall
not be merged unless Lender agrees to the merger in writing.
6. Condemnation. The proceeds of any award or claim for damages, direct
or consequential, in connection with any condemnation or other taking of any part
of the Property, or for conveyance in place of condemnation, are hereby assigned
and shall be paid to Lender to the extent of the full amount of the indebtedness that
remains unpaid under the Note and this Security Instrument. Lender shall apply
such proceeds to the reduction of the indebtedness under the Note and this Security
Instrument, first to any delinquent amounts applied in the order provided in
paragraph 3, and then to prepayment of principal. Any application of the proceeds
to the principal shall not extend or postpone the due date of the monthly payments,
which are referred to in paragraph 2, or change the amount of such payments. Any
excess proceeds over an amount required to pay all outstanding indebtedness under
the Note and this Security Instrument shall be paid to the entity legally entitled
thereto.
7. Charges to Borrower and Protection of Lender’s Rights in the
Property. Borrower shall pay all governmental or municipal charges, fines and
impositions that are not included in paragraph 2. Borrower shall pay these
obligations on time directly to the entity which is owed the payment. If failure to

25a

pay would adversely affect Lender’s interest in the Property, upon Lender’s request
Borrower shall promptly furnish to Lender receipts evidencing these payments.
If Borrower fails to make these payments or the payments required by
paragraph 2, or fails to perform any other covenants and agreements contained in
the Security Instrument, or there is a legal proceeding that may significantly affect
lender’s rights in the Property (such as a proceeding in bankruptcy, for
condemnation or to enforce laws or regulations), then Lender may do any pay
whatever is necessary to protect the value of the Property and Lender’s rights in the
Property, including payment of taxes, hazard insurance and other items mentioned
in paragraph 2.
Any amounts disbursed by Lender under this paragraph shall become an
additional debt of Borrower and be secured by this Security Instrument. These
amounts shall bear interest from the date of disbursement at the Note rate, and at
the option of Lender shall be immediately due and payable.
Borrower shall promptly discharge any lien which has priority over the Security
Instrument unless Borrower: (a) agrees in writing to the payment of the obligation
secured by the lien in a manner acceptable to Lender; (b) contests in good faith the
lien by, or defends against enforcement of the lien in, legal proceedings which in the
Lender’s opinion operate to prevent the enforcement of the lien; or (c) secures from
the holder of the lien an agreement satisfactory to the Lender subordinating the
lien to this Security Instrument. If Lender determines that any part of the Property
is subject to a lien which may attain priority over this Security Instrument, Lender
may give Borrower a notice identifying the lien. Borrower shall satisfy the lien or
take one or more of the actions set forth above within 10 days of the giving of notice.
GCC – 1590-3MI (08/97)

Page 3 of 7

Initials: _CD__

47905 – P 420
8. Fees. Lender may collect fees and charges authorized by the Secretary.
9. Grounds for Acceleration of Debt.
(a) Default. Lender may, except as limited by regulations issued by the
Secretary in the case of payment defaults, require immediate payment
in full of all sums secured by this Security Instrument if:
(i) Borrower defaults by failing to pay in full any monthly payment
required by this Security Instrument prior to or on the due date of the
next monthly payment, or
(ii) The Property is not occupied by the purchaser or grantee as his or
her principal residence, or the purchaser or grantee does so occupy the
Property but his or her credit has not been approved in accordance
with the requirements of the Secretary.

26a

(b) Sale Without Credit Approval. Lender shall, if permitted by
applicable law (including section 341(d) of the Garn-St Germain
Depository Institutions Act of 1982, 12 U.S.C. 1701j-3(d) and with the
prior approval of the Secretary, require immediate payment in full of
all sums secured by this Security Instrument if:
(c) No Waiver. If circumstances occur that would permit Lender to
require immediate payment in full, but Lender does not require such
payments, Lender does not waive its rights with respect to subsequent
events.
(d) Regulations of HUD Secretary. In may circumstances regulations
issued by the Secretary will limit Lender’s rights, in the case of
payment defaults, to require immediate payment in full and foreclose
if not paid. This Security Instrument does not authorize acceleration
or foreclosure if not permitted by regulations of the Secretary.
(e) Mortgage Not Insured. Borrower agrees that if this Security
Instrument and the Note are not determined to be eligible for
insurance under the National Housing Act within 90 Days from the
date hereof, Lender may, at its option require immediate payment in
full of all sums secured by this Security Instrument. A written
statement of any authorized agent of the Secretary dated subsequent
to 90 Days from the date hereof, declining to insure this Security
Instrument and the Note, shall be deemed conclusive proof of such
ineligibility. Notwithstanding the foregoing, this option may not be
exercised by Lender when the unavailability of insurance is solely due
to Lender’s failure to remit a mortgage insurance premium to the
Secretary.
10. Reinstatement. Borrower has a right to be reinstated if Lender has
required immediate payment in full because of Borrower’s failure to pay an amount
due under the Note or this Security Instrument. This right applies even after
foreclosure proceedings are instituted. To reinstate the Security Instrument,
Borrower shall tender in a lump sum all amounts required to bring Borrower’s
account current including, to the extent they are obligations of Borrower under the
Security Instrument, foreclosure costs and reasonable and customary attorneys’ fees
and expenses properly associated with the foreclosure proceeding. Upon
reinstatement by Borrower, this Security Instrument and the obligations that it
secures shall remain in effect as if Lender had not required immediate payment in
full. However, Lender is not required to permit reinstatement if: (i) Lender has
accepted reinstatement after the commencement of foreclosure proceedings within
two years immediately preceding the commencement of a current foreclosure
proceeding, (ii) reinstatement will preclude foreclosure on different grounds in the
future, or (iii) reinstatement will adversely affect the priority of the lien created by
this Security Instrument.
11. Borrower Not Released; Forbearance By lender Not a Waiver.

27a

Extension of the time of payment or modification of amortization of the sums
secured by this Security Instrument granted by Lender to any successor in interest
of Borrower shall not operate to release the liability of the original Borrower or
Borrower’s successor in interest. Lender shall not be required to commence
proceedings against any successor in interest or refuse to extend time for payment
or otherwise modify amortization of the sums secured by the Security Instrument
by reason of any demand made by the original Borrower of Borrower’s successors in
interest. Any forbearance by lender in exercising any right or remedy shall not be a
waiver of or preclude the exercise of any right or remedy.
12. Successor and Assigns Bound; Joint and Several Liability;
Co-Signers. The covenants and agreements of this Security Instrument shall bind
and benefit the successors and assigns of Lender and Borrower, subject to the
provisions of paragraph 9(b). Borrower’s covenants and agreements shall be joint
and several. Any Borrower who co-signs this Security Instrument but does not
execute the Note: (a) is co-signing this Security Instrument or the Note without that
Borrower’s consent.
13. Notices. Any notice to Borrower provided for in this Security Instrument
Shall be given by delivering it or by mailing it by first class mail unless applicable
law requires use of another method. The notice shall be directed to the Property
Address or any other address Borrower designates by notice to Lender. Any notice
to Lender shall be given by first class mail to Lender’s address stated herein or any
address Lender designates by notice to Borrower. Any notice provided for in this
Security Instrument shall be deemed to have been given to Borrower or Lender
when given as provided in this paragraph.
GCC – 1590-4MI (08/97)

Page 4 of 7

Initials: _CD__

L 47905 – P 421
14. Governing Law; Severability. This Security Instrument shall be
governed by Federal law and the law of the jurisdiction in which the Property is
located. In the event that any provision or clause of the Security Instrument or the
Note conflicts with applicable law, such conflict shall not affect other provisions of
this Security Instrument or the Note which can be given effect without the
conflicting provision. To this end the provision of this Security Instrument and the
Note are declared to be severable.
15. Borrower’s Copy. Borrower shall be given one conformed copy of the
Note and of this Security Instrument.
16. Hazardous Substances. Borrower shall not use or permit the presence,
use, disposal, storage, or release of any Hazardous substances on or in the Property.
Borrower shall not do, nor allow anyone else to do anything affecting the Property

28a

that is in violation of the Environment Law. The preceding two sentences shall not
apply to the presence, use, or storage on the Property of small quantities of
Hazardous Substances that are generally recognized to be appropriate to normal
residential uses and to maintenance of the Property.
Borrower shall promptly give Lender written notice of any investigation,
claim, demand, lawsuit or other action by any governmental or regulatory agency or
private party involving the Property and any Hazardous Substance or Environment
Law of which Borrower has actual knowledge. If Borrower learns, or is notified by
any governmental or regulatory authority, that any removal or other remediation of
any Hazardous Substance affecting the Property is necessary, Borrower shall
promptly take all necessary remedial actions in accordance with Environmental
Law.
As used in this paragraph 16, ‘Hazardous Substances’ are those substances
defined as toxic or hazardous substances by Environmental Law and the following
substances: gasoline, kerosene, other flammable or toxic petroleum products, toxic
pesticides and herbicides, volatile solvents, materials containing asbestos or
formaldehyde, and radioactive materials. As used in this paragraph16,
‘Environmental Law’ means federal laws and laws of the jurisdiction where the
Property is located that relate to health, safety or environmental protection.
NON-UNIFORM COVENANTS. Borrower and Lender further covenant and
agree as follows:
17. Assignment of Rents. Borrower unconditionally assigns and transfers
to Lender all the rents and revenues of the Property. Borrower authorizes Lender or
Lender’s agents. However, prior to Lender’s notice to Borrower of Borrower’s breach
of any covenant or agreement in the Security Instrument, Borrower shall collect
and receive all rents and revenues of the Property as trustee for the benefit of
Lender and Borrower. This assignment of rents constitutes an absolute assignment
and not an assignment for additional security only.
If Lender gives notice of breach to Borrower: (a) all rents received by
Borrower shall be held by Borrower as trustee for benefit of Lender only, to be
applied to the sums secured by the security Instrument; (b) Lender shall be entitled
to collect and receive all of the rents of the Property; and (c) each tenant of the
Property shall pay all rents due and unpaid to Lender or Lender’s agent on Lender’s
written demand to the tenant.
Borrower has not executed any prior assignment of the rents and has not and
will not perform any act that would prevent Lender from exercising its rights under
this paragraph 17.
Lender shall not be required to enter upon, take control of or maintain the
Property before or after giving notice of breach to Borrower. However, lender or a
judicially appointed receiver may do so at any time there is a breach. Any
application of rents shall not cure or waive any default or invalidate any other right

29a

or remedy of Lender. This assignment of rents of the Property shall terminate when
the debt secured by the Security Instrument is paid in full.
18. Foreclosure Procedure. If Lender requires immediate payment in full
under paragraph 9, Lender may invoke the power of sale and any other remedies
permitted by applicable law. Lender shall be entitled to collect all expenses incurred
in pursuing the remedies proceeded in the paragraph 18, including, but not limited
to, reasonable attorneys’ fees and costs of title evidence.
If Lender invokes the power of sale, Lender shall give notice of sale to
Borrower in the manner provided in paragraph 13. Lender shall publish and post
the notice of sale, and the Property shall be sold in the manner prescribed by
applicable law. Lender or its designee may purchase the Property at any sale. The
proceeds of the sale shall be applied in the following order: (a) to all expenses of the
sale, including, but not limited to, reasonable attorneys’ fees; (b) to all sums secured
by this Security Instrument; and (c) any excess to the person or persons legally
entitle to it.
If the Lender’s interest in this Security Instrument is held by the Secretary
and the Secretary requires immediate payment in full under paragraph 9, the
Secretary may invoke the nonjudicial power of sale provided in the Single Family
Mortgage Foreclosure Act of 1994 (‘Act’) (12 U.S.C. 3751 et seq.) by requesting a
foreclosure commissioner designated under the Act to commence foreclosure and to
sell the property as provided in the Act. Nothing in the preceding sentence shall
deprive the Secretary of any rights otherwise available to a Lender under this
paragraph 18 or applicable law.
19. Release. Upon payment of all sums secured by this Security Instrument,
Lender shall prepare and file a discharge of this Security Instrument without
charge to Borrower. Borrower shall pay any recordation costs.
GCC – 1590-5MI (08/97)

Page 5 of 7

Initials: _CD__

47905 – P 422
20. Riders to this Security Instrument. If one or more riders are executed
by Borrower and recorded together with this Security Instrument, the covenants of
each such rider shall be incorporated into and shall amend and supplement the
covenants and agreements of this Security Instrument as if the rider(s) were a part
of the Security Instrument.
Condominium Rider
Graduated Payment Rider
Other(s) [specify]

Growing Equity Rider
Planned Unit Development Rider

30a

BY SIGNING BELOW, Borrower accepts and agrees to the terms contained in the
Security Instrument and in any rider(s) executed by Borrower and recorded with it.
_______________________________________ (Seal)
CLIFFORD DOUGLAS JR
-Borrower
This Mortgage was prepared by: VINCE PAPARELLI
MVB MORTGAGE CORPORATION
24400 NORTHWESTERN HIGHWAY
SUITE 200
SOUTHFIELD, MI 48075

GCC – 1590-6MI (3/02)

Page 6 of 7

L 47905 – P 423
INDIVIDUAL ACKNOWLEDGEMENT
STATE OF MICHIGAN
COUNTY OF WAYNE

)
) SS
)

On this day before me, the undersigned Notary Public, personally appeared
CLIFFORD DOUGLAS JR, A MARRIED MAN executed the Mortgage, and
acknowledged that he/she/they signed the Mortgage as his/her/their free and
voluntary act and deed, for the uses and purposes therein mentioned.
Given under my hand and official seal this 9th day of January, 2009.
By_____________________________

Residing at

Notary Public in and for the State of MICHIGAN

My commission expires 6-13-13

Robert L. Garrow
Notary Public
State of Michigan
My Commission Expires 6-13-13

31a

Acting In The County Of Wayne

GCC – 1590-7MI (10/01)

Page 7 of 7

32a

APPENDIX G
SHERIFF’S DEED ON MORTGAGE SALE
This Indenture made the 25th day of August 2016, between
LaShana Cooper, a Deputy Sheriff in and for Wayne, Michigan, party of the first part
and Kondaur Capital Corporation, party of the second part (hereinafter called the
grantee) whose address is c/o 39255 Country Club Drive, Suite B-40, Farmington
Hills, MI 48331.
WITNESSETH, that whereas, CLIFFORD DOUGLAS, JR., A MARRIED MAN,
made a certain mortgage to MVB MORTGAGE CORPORATION, AN OHIO
CORPORATION (hereinafter called the mortgagee), which was duly recorded in
Liber 47905, Page 417, and was assigned by said mortgagee to KONDAUR CAPITAL
CORPORATION, as assignee, Wayne County Records
WHEREAS, said mortgage contained a power of sale which has become operative
by reason of a default in the condition of said mortgage, and
WHEREAS, no suit of proceedings at law or in equity to recover the debt secured
by said mortgage or any part thereof, and
WHEREAS, the party foreclosing has represented that it is either the
owner of the indebtedness or of an interest in the indebtedness secured by
the mortgage or the servicing agent of the mortgage, and
WHEREAS, by virtue of said power of sale, and pursuant to the statute of the
State of Michigan in such case made and provided, a notice was duly published and
a copy thereof was duly posted in a conspicuous place upon the premises described in
said mortgage that said premises, or some part of them, would be sold on the 25th day
of August 2016* Wayne County Circuit Court Tower in the Coleman A. Young
Municipal Center in Detroit in Wayne County, Michigan, that being the place of
holding the Circuit Court for Wayne County, whereas the premises are situated and
WHEREAS, pursuant to said notice I did at 11:00 AM in the forenoon on the day
aforesaid, expose for sale at the public vendue the said lands and tenements
hereinafter described, and on such sale did strike off and sell the said lands and
tenements to the grantee for the sum of $51,984.59 (Fifty-One Thousand Nine
Hundred Eighty-Four Dollars and Fifty-Nine Cents), that being the highest bid
therefore and the grantee being the highest bidder, and
WHEREAS, said lands and tenements are situated in the Township of Redford,
Wayne County, Michigan, more particularly described as follows:
LOT(S) 508, DUNNING PARK SUBDIVISION, ACCORDING TO THE RECORDED
PLAT THEREOF, AS RECORDED IN LIBER 55 OF PLATS, PAGE 27.
Tax/Parcel I.D. No. 79-045-01-0508-000
A/K/A 9567 LENORE, REDFORD, MI 48239

33a

***This instrument is exempt from transfer tax under MCL 207.526(v), MCL
207.526(h)(ii) and MCL 207.505(h)(ii).
FHA# XXX-XXXXXXX-703
Drafted by and when recorded return to:
Margaret M. Lukshaitis,
Schneiderman & Sherman, P.C.
Farmington Hills, Michigan 48335
KCC.000032
*SALE ADJOURNED FROM August 11, 2016 TO August 25, 2016
Now, this indenture Witnesseth, That I, the Deputy Sheriff aforesaid, by virtue of
and pursuant to the statute in such case made and provided, and in consideration of
the sum of money so paid aforesaid, have granted, conveyed, bargained and sold, and
by this deed do grant, convey bargain and sell unto the grantee, its successors and
assigns, Forever, All the estate, right title and interest which the said Mortgagor had
in said land and tenements and every part thereof, on the 9th day of January, 2009
that being the date of said mortgage, or at anytime thereafter, To Have and to Hold
the said lands and tenements and every part thereof to the said grantee, its
successors and assigns forever, to their sole use, benefit and behoove forever, as fully
and absolutely as I the Deputy Sheriff aforesaid, under the authority aforesaid, might
could or ought to sell the same.
IN WITNESSETH WHEREOF, I HAVE SET MY HAND AND SEAL, THE
DATE AND YEAR FIRST ABOVE WRITTEN.
/s/ LaShana Cooper
(seal)
Deputy Sheriff in and for the County of Wayne
STATE OF MICHIGAN
COUNTY OF Wayne ss.
On this 25th day of August, 2016, before me, a Notary Public in and for said County
of Wayne, came LaShana Cooper, a Deputy Sheriff of said County, known to me to be
the individual described in an who executed the above conveyance, and who
acknowledged that he/she executed the same to be his/her free act and deed as such
Deputy Sheriff.
/s/ A. Sanders
Notary Public, Wayne County, Michigan
My Commission expires October 9, 2020
Acting in the County of Wayne
File No. KCC.000032
Mortgagor Name: DOUGLAS JR

34a

Property Address: 9567 Lenore, Redford, MI 48239
Drafted by and when recorded return to:
Margaret M. Lukshaitis,
Schneiderman & Sherman, P.C.
Farmington Hills, Michigan 48335
KCC.000032

(Affidavit of Auctioneer)
STATE OF MICHIGAN
)
COUNTY OF WAYNE
) SS
LaShana Cooper, being first duly sworn, deposes and says that he/she is a Deputy
Sheriff of said Wayne county,; that he/she acted as auctioneer, and made the sale as
described in the annexed deed pursuant to the annexed printed notice; that said sale
was opened at 11 :00 AM on the 25th day of August, 2016, at Wayne County Circuit
Court Tower in the Coleman A. Young Municipal Center in Detroit in Wayne County,
Michigan., that that being the place of holding the Circuit Court in said Wayne
County, and said sale was kept open for the space of one hour, that the highest bid
for the land and tenements therein described was the sum of $51,984.59 (Fifty-One
Thousand Nine Hundred Eighty-Four Dollars and Fifty Nine Cents), made by
KONDAUR CAPITAL CORPORATION, that said sale was in all respects open and
fair and that he/she did strike off and sell lands and tenements fairly and in good
faith, as deponent verily believes.
*SALE ADJOURNED FROM August 11, 2016 TO August 25, 2016
/s/ LaShana Cooper
Deputy Sheriff in and for the County of Wayne
LaShana Cooper
Subscribed and sworn to before me this 25th day of August, 2016.
/s/ A. Sanders
Notary Public, Wayne County, Michigan
My Commission expires October 9, 2020
Acting in the County of Wayne
STATE OF MICHIGAN )
COUNTY OF WAYNE
)

ss

35a

I DO HEREBY CERTIFY, that the last day to redeem is February 27, 2017, after
which, if there has been no redemption, the Sheriff’s Deed will become operative,
unless extinguished pursuant to MCL 600.3238 or unless determined abandoned
under MCL 600.3241a, and in the latter case, the redemption period shall be the
latter of 30 days from the date of sale or 15 days from the date of posting and mailing
of notice of abandonment.
/s/ LaShana Cooper
Deputy Sheriff in and for the County of Wayne
LaShana Cooper
This instrument drafted by:
Margaret M. Lukshaitis,
Schneiderman & Sherman, P.C.
23938 Research Drive, Suite 300
Farmington Hills, Michigan 48335
ATTN PURCHASERS: This sale may be rescinded by the foreclosing mortgagee. In
that event, your damages, if any, shall be limited solely to the return of the bid
amount tendered at sale, plus interest. Please be advised that all third party bidders
are responsible for preparing and recording the Sheriff’s Deed. SCHNEIDERMAN &
SHERMAN, P.C. Hereby expressly disclaims all liability relating to the foreclosure,
preparation and recording of the Sheriff’s Deed.
File No. KCC.000032
Mortgagor Name DOUGLAS JR
Property Address 9567 LENORE REDFORD, MI 48239

36a
Affidavit of Publication
(Affidavit of Publisher)
STATE OF MICHIGAN,
ss.
COUNTY OF OAKLAND

The undersigned, an
employee of the publisher of
Detroit Legal News, having
knowledge of the facts, being
duly sworn deposes and says
that a notice, a true copy of
which is annexed hereto, was
published in Detroit Legal
News a newspaper circulated
in Wayne County on July 8,
July 15, July 22, July 29,
2016 A.D.

/s/ Pattie McKenzie
Pattie McKenzie
Subscribed and sworn before
me on this 29th day of July
2016 A.D.
/s/ Jennifer Dado
Jennifer Dado
Notary Public Oakland
County, Michigan. My
commission expires: January
25, 2019 Acting in Oakland
County, Michigan

2016319485

Page 4 of

7

Schneiderman –
CLIFFORD
DOUGLAS JR
Schneiderman &
Sherman, P.C. Attorneys
Research, Drive, Suite 300
Farmington Hills, MI
SCHNEIDERMAN &
SHERMAN, P.C. IS
ATTEMPTING TO

23938
48335

37a

COLLECT A DEBT, ANY INFORMATION WE OBTAIN WILL BE USED FOR
THAT PURPOSE. PLEASE CONTACT OUR
OFFICE AT (248) 539-7400 IF YOU ARE IN ACTIVE
MILITARY DUTY: MORTGAE SALE: Default has been made in the conditions of a
mortgage made by Clifford Douglas Jr, A MARRIED MAN, TO MVB MORTGAGE
CORPORATION, AN OHIO CORPORATION, Mortgagee, dated January 9, 2009,
and recorded on May 11, 2009 in Liber 47905, on Part 417,and assigned by said
mortgagee to KONDAUR CAPITAL
CORPORATION, as assigned, Wayne County Records,
Michigan, on which mortgage there is claimed to be due at the date hereof the sum
of Forty-Eight Thousand Three Hundred Ninety Dollars and Fifty-Eight Cents
($48,390.58), including interest at 6.500% per annum. Under the power of sale
contained in said mortgage and the statute in such case made and provided, notice
is hereby given that said mortgage will be foreclosed by a sale of the mortgaged
premises, or some part of them, at public vendue, Wayne County Circuit Court
Tower in the Coleman A. Young Municipal Center in Detroit in Wayne County,
Michigan and are described as:
LOT(S) 508, DUNNING PARK, SUBDIVISION ACCORDING TO THE
RECORDED PLAT THEREOF, AS RECORDED IN LIBER 55 OF PLATS, PAGE
27. The redemption period shall be 6 months from the date of such sale, unless
abandoned under MCL 600.3241, in which the redemption period shall be 1 month
or under MCL 600.3241a 30 days from the date of such sale, or 15 days
from the MCL 600.3241a(b) notice,
whichever is later, or extinguished pursuant
to MCL 600.3238. If the above referenced
property is sold at a foreclosure sale under
Chapter 32 of Act 236 of 1961, under
MCL 600.3278, the borrower will be held
responsible to the person who buys the property
at the mortgage foreclosure sale or to the
mortgage holder for damaging the property
during the redemption period. KONDAUR
CAPITAL CORPORATION Mortgagee/Assignee
Schneiderman & Sherman, P.C. 23938
Research Drive, Suite 300 Farmington Hills,
MI 48335S2016061715625 FHA (7-8)(7-29)

Attorney:

Schneiderman & Sherman, P.C. – Schneiderman &
Sherman

38a
Evidence of Sale

AttorneyFile#:
KCC.000032

STATE OF MICHIGAN,
ss.
COUNTY OF OAKLAND

Notice#:
1282623

Brian Klerkx being duly
sworn, deposes that on the 9th
day of July 2016 A.D., he/she
posted a notice, a true copy of
which is annexed hereto, in a
conspicuous place upon the
premises described in said
notice by attaching the same
in a secure manner to 9567
LENORE, REDFORD, MI
48239-1663.

/s/ Brian Klerkx
Brian Klerkx
Subscribed and sworn before
me on this 13th day of July
2016 A.D.
/s/ Sheree B. Glynn
Sheree B. Glynn
Notary Public Oakland
County, Michigan. My
commission expires:
February 5, 2021. Acting in
Oakland County, Michigan

2016319485

Page 5 of

7

Schneiderman –
CLIFFORD
DOUGLAS JR
Schneiderman &
Sherman, P.C. Attorneys

23938

39a

Research, Drive, Suite 300 Farmington Hills, MI 48335
SCHNEIDERMAN & SHERMAN, P.C. IS ATTEMPTING TO COLLECT A DEBT,
ANY INFORMATION WE OBTAIN WILL BE USED FOR THAT PURPOSE.
PLEASE CONTACT OUR
OFFICE AT (248) 539-7400 IF YOU ARE IN ACTIVE
MILITARY DUTY: MORTGAE SALE: Default has been made in the conditions of a
mortgage made by Clifford Douglas Jr, A MARRIED MAN, TO MVB MORTGAGE
CORPORATION, AN OHIO CORPORATION, Mortgagee, dated January 9, 2009,
and recorded on May 11, 2009 in Liber 47905, on Part 417,and assigned by said
mortgagee to KONDAUR CAPITAL
CORPORATION, as assigned, Wayne County Records,
Michigan, on which mortgage there is claimed to be due at the date hereof the sum
of Forty-Eight Thousand Three Hundred Ninety Dollars and Fifty-Eight Cents
($48,390.58), including interest at 6.500% per annum. Under the power of sale
contained in said mortgage and the statute in such case made and provided, notice
is hereby given that said mortgage will be foreclosed by a sale of the mortgaged
premises, or some part of them, at public vendue, Wayne County Circuit Court
Tower in the Coleman A. Young Municipal Center in Detroit in Wayne County,
Michigan and are described as:
LOT(S) 508, DUNNING PARK, SUBDIVISION ACCORDING TO THE
RECORDED PLAT THEREOF, AS RECORDED IN LIBER 55 OF PLATS, PAGE
27. The redemption period shall be 6 months from the date of such sale, unless
abandoned under MCL 600.3241, in which the redemption period shall be 1 month
or under MCL 600.3241a 30 days from the date of such sale, or 15 days
from the MCL 600.3241a(b) notice,
whichever is later, or extinguished pursuant
to MCL 600.3238. If the above referenced
property is sold at a foreclosure sale under
Chapter 32 of Act 236 of 1961, under
MCL 600.3278, the borrower will be held
responsible to the person who buys the property
at the mortgage foreclosure sale or to the
mortgage holder for damaging the property
during the redemption period. KONDAUR
CAPITAL CORPORATION Mortgagee/Assignee
Schneiderman & Sherman, P.C. 23938
Research Drive, Suite 300 Farmington Hills,
MI 48335S2016061715625 FHA (7-8)(7-29)

40a

CHECK IF
Multi-Unit
Multi-Addr
Condo

Vacant
Upper-Unit Lower-Unit
Unit1
Unit 2 Unit A Unit B
Mobile/Manufact No Dwelling
Attorney:

Schneiderman & Sherman, P.C. – Schneiderman &
Sherman

AttorneyFile#:

KCC.000032

Notice#:

1282623

NON-MILITANT AFFIDAVIT
State of Michigan
County of Oakland

} ss.

}
}

The undersigned, being first duly deposed, says that upon investigation she, is
informed and believes that none of those person(s) named in the attached notice of
mortgage foreclosure, nor any person upon whom any of those person(s) named were
dependent, were in the military service of the United States at the time of sale or for
the twelve (12) months prior thereto.

41a

Deponent further states that this affidavit is made for the purpose of preserving
a record and clearing title by virtue of (a) the Servicemembers Civil Relief Act
(formerly entitled Soldiers’ and Sailors’ Civil Relief Act of 1940), as amended; (b) the
Military Reservist Act of 1991; and (c) Sections 3185 and 3285 of the Michigan
Revised Judicature Act (MCL 600.3185 and 600.3285).
Dated this _____ day of AUG 23 2016, 20___.
/s/ Margaret M. Lukshaitis
Margaret M. Lukshaitis, of Schneiderman & Sherman, P.C.
Attorney for KONDAUR CAPITAL CORPORATION
Subscribed and sworn to before me this _____ day of AUG 23 2016 , ____.
/s/ Kim Harrington, Notary Public
Oakland County, Michigan
My Commission Expires: June 28, 2021
Acting in Oakland County, Michigan

42a

AFFIDAVIT OF PURCHASER AT FORECLOSURE SALE TO BE RECORDED
WITH SHERIFF’S DEED
On AUG 23 2016 ______, ______, Margaret M. Lukshaitis, of Schneiderman &
Sherman, P.C., an attorney for KONDAUR CAPITAL CORPORATION, being duly
sworn, states as follows:
1. This Affidavit is given pursuant to Act No. 538 of Michigan Public Acts of 2004
to amend 1961 Public Act 236 by amending MCL 600.2567, 600.3140, 600.3240,
600.6062, section 2567 as amended by 2002 Public Act 698 ad section 2340 as
amended by 2000 Public Act 380.
2. I am authorized to submit this Affidavit on behalf of KONDAUR CAPITAL
CORPORATION, (the “Purchaser”). I have knowledge of the facts stated herein and
am competent to testify concerning such facts regarding a foreclosure sale scheduled
for August 25, 2016, with respect to certain real property commonly known as: 9567
LENORE, REDFORD, MI 48239. THIS AFFIDAVIT MAY ONLY BE RECORDED
AND USED BY THE PURCHASER DESCRIBED HEREIN IN THE EVENT IT
IS SUCCESSFUL PURCHASER OF THE PROPERTY. NO OTHER
PURCHASER MAY UTILIZE THIS AFFIDAVIT.
3. The last day to redeem the Property is 02/27/2017, after which, if there has
been no redemption, the Sheriff’s Deed will become operative, unless extinguished
pursuant to MCL 600.3238 or unless determined abandoned under MCL 600.3241a,
and in the latter case the redemption period shall be the latter of 30 days from the
date of sale or 15 days from the date of posting and mailing of notice of abandonment.
4. The amount necessary to redeem the Property is $51,984.59, plus interest at a
per diem rate of $9.26 from the date of sale to the date of redemption, plus any
additional amounts that may be added pursuant to MCLA Section 600.3240(4). ANY
REDEEMING PARTY SHOULD NOTE THAT THIS AMOUNT MAY INCREASE to
include any amounts paid by the Purchaser described herein for taxes, amounts
necessary to redeem senior liens, condominium assessments, homeowner association
assessments, community association assessments, insurance premiums, or any other
amounts as provided by MCLA 600.3204(4), as well as attorneys fees, costs, and
interest thereon at the interest rate specified in the mortgage from the date of the
payment to the date of redemption.
5. The Purchaser described herein has designated Schneiderman & Sherman,
P.C. as its designee responsible to assist an appropriate person redeeming the
Property in computing the exact amount required to redeem the Property and to
receive redemption funds. If you choose to utilize this assistance, please contact our
redemption specialists at Schneiderman & Sherman, P.C., 23938 Research Drive,
Suite 300, Farmington Hills, Michigan 48335, telephone (248) 539-7400 x 188.
Pursuant to statute, a fee of $200.00 will be charged to use the assistance of
Schneiderman & Sherman, P.C.

43a

FURTHER DEPONENT SAYETH NOT.
STATE OF MICHIGAN )
)
By: /s/ Margaret M. Lukshaitis
COUNTY OF OAKLAND
) Margaret M. Lukshaitis, of Schneiderman &
Sherman, P.C.
Attorney for KONDAUR CAPITAL CORPORATION
On this ______ day of AUG 23 2016, 2016, before me, a Notary Public, personally
appeared Margaret M. Lukshaitis, of Schneiderman & Sherman, P.C., an attorney
for KONDAUR CAPITAL CORPORATION, who executed the above Affidavit of
Purchaser and being personally known and duly sworn did acknowledge the same to
be her free act and deed.
/s/ Kim Harrington
Kim Harrington, Notary Public
Oakland County, Michigan
My Commission Expires: June 28, 2021
Acting in Oakland County, Michigan
Drafted by and when recorded return to:
Margaret M. Lukshaitis,
Schneiderman & Sherman, P.C.
23938 Research Drive, Suite 300
Farmington Hills, Michigan 48335
KCC.000032

44a

APPENDIX H
Bernard J. Youngblood
Wayne County Register of Deeds
September 04, 2012 8:09 AM
Inst: 2012341547 JGL: Pages: 3
Liber: 50077 Page: 326
STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF WAYNE
LADAWN DOUGLAS,
Plaintiff,
vs.
CLIFFORD DOUGLAS,
Defendant,

11-105583 DO 05/06/2011
JDG: DEBORAH ROSS ADAMS
DOUGLAS, LADAWN
vs
DOUGLAS, CLIFFORD

__________________________________/
R. GARY SUNDELL (P30553)
Attorney for Plaintiff
24655 Southfield Rd., Ste. 200
Southfield, MI 48075
248-559-4448
__________________________________

Filed AUG 2-2011

DEFAULT JUDGMENT OF DIVORCE
At a session of said Court held in the
Wayne County Courthouse, on AUG 2- 2011
PRESENT: HON. DEBORAH ROSS ADAMS
Circuit Court Judge
This cause having been brought on to be heard, taken as confessed by the
Defendant, and the proofs having been taken in the open Court, from which it
satisfactorily appears to this Court that the material facts alleged in the Complaint
are true, and that there has been a breakdown of the marriage relationship to the
extent that the objects of matrimony have been destroyed and there remains no
reasonable likelihood that the marriage can be preserved.
On Motion of R. GARY SUNDELL Attorney for Plaintiff;

45a

ABSOLUTE DIVORCE
IT IS ORDERED AND ADJUDGED that the marriage between the said Plaintiff
and Defendant be and the same hereby is dissolved, and a divorce from the bonds of
matrimony between said parties is hereby dissolved accordingly,
SPOUSAL SUPPORT
IT IS FURTHER ORDERED AND ADJUDGED that spousal support is not
awarded to either party and is forever barred. No Uniform Spousal Support Order is
required as no spousal support is ordered.
No A. 64794 E-314 BK.
State of Michigan }
County of Wayne
(seal)
CERTIFIED COPY – “LAW”
I, Cathy M. Garrett, Clerk of Wayne County, and Clerk of the Circuit Court for
the County of Wayne, do hereby certify, that the above and the foregoing is a true
and correct copy of Default Judgment of Divorce 11105583DO
Entered in the above entitled cause by said Court, as appears of record in my office.
That I have compared the same with the original, and it is a true transcript
therefrom, and of the whole thereof.
In testimony Whereof, I have hereunto set my hand and affixed the seal of said Court
and County, at Detroit, this day of 8-31 A.D. 20 12.
CATHY M. GARRETT, Clerk
Fee, $12

/s/ illegible

, Deputy Clerk

46a

PROPERTY SETTLEMENT
IT IS FURTHER ORDERED AND ADJUDGED that the property of the parties
be divided as follows:
1. Each party shall be awarded the personal property in their own possession.
2. The 2007 Sorrento, titled in Defendant’s name, shall be awarded to Defendant
who shall hold Plaintiff harmless thereon.
3. The real estate located at: 9567 Lenore Street, Redford, Michigan and
described as follows”
Lot 58 Dunning Park Sub T1S R10E L55 P27 WCR
Shall be awarded to Plaintiff who shall transfer the title of said property by recording
the Judgment of Divorce with the Wayne County Register of Deeds Office.
PENSION RELEASE
IT IS FURTHER ORDERED AND ADJUDGED that any interest of either party
in the pension of the other party are hereby extinguished unless specifically provided
for in this Judgment of Divorce. The Survivor Benefit Option is specifically revoked.
STATUTORY INSURANCE PROVISIONS
IT IS FURTHER ORDERED AND ADJUDGED that any rights of either party in
any policy or contract of life, endowment or annuity insurance of the other as
beneficiary are hereby extinguished unless specifically preserved by this Judgment.
DOWER RELEASE
IT IS FURTHER ORDERED AND ADJUDGED that the dower rights of both
parties are extinguished and that the parties shall hereafter hold their remaining
lands free, clear and discharged from any such dower, right or claim that the other
may have in any property which they own or may hereafter own or in which they
have or may hereafter have any interest.
RESTORATION OF PRIOR NAME
IT IS FURTHER ORDERED AND ADJUDGED that the Plaintiff shall be restored
to her prior name of LADAWN Hall if she so chooses.
This Judgment disposes of all pending claims between the parties.
/s/ LaDawn Douglas
/s/ R. Gary Sundell
Attorney for Plaintiff

/s/Deborah Ross Adams
Circuit Judge

47a

Deputy Clerk

A TRUE COPY
CATHY M. GARRETT
WAYNE COUNTY CLERK
By /s/ illegible

48a

(Page 1 of 1)
2012 SEP 17 PM 12:54

Loan # 889000031

APPENDIX J

Bernard J. Youngblood
Wayne County Register of Deeds
September 17, 2012 12:54 PM
Inst :2012376783 ASG Pages: 1
Liber :50129 Page: 232

ASSIGNMENT OF MORTGAGE

FOR VLAUE RECEIVED, the undersigned holder of a Mortgage (herein “Assignor”)
whose address is 24400 Northwester Hwy, Suite 200, Southfield, MI 48075, does
hereby grant, sell, assign, transfer and convey, unto KONDAUR CAPTIAL
CORPORATION, whose address is One City Boulevard West, Suite 1900, Orange,
CA 92868(herein “Assignee”), a certain Mortgage dated January 9, 2009, made and
executed by Clifford Douglas, Jr., A Married Man, to and in favor of MVB
Mortgage Corporation, An Ohio Corporation, and recorded May 11, 2009 in Liber
47905, Page 417-423, Wayne County Records, State of MI, described as follows:
Lot(s) 508, Dunning Park Subdivision, according to the recorded plat thereof, as
recorded in Liber 55 of Plats, Page 27.
Commonly known as: 9567 Lenore, Redford, Michigan 48239
APN: 79-045-01-0508-000
TOGETHER with the note(s) or obligation(s) therein described or referred to
WITHOUT RECOURSE, the money due and to become due theron with interest,
and all rights accrued or to accrue under said Real Estate Mortgage.
IN WITNESS WHEREOF, the undersigned Assignor has executed this Assignment
of Mortgage on September 1, 2012.
MVB MORTGAGE CORPORATION
Assignor
__________________________________

By: ________________________________

49a

Vincent Paparelli, witness

Cheryl York, Asst Vice President

__________________________________
Diana Giles, witness
______________________(Space below this line reserved for Acknowledgement)______
STATE OF MICHIGAN )
) SS
COUNTY OF OAKLAND
On September 1, 2012 before me, the undersigned, a Notary Public, in and for said
County and State, personally appeared Cheryl York, known to me to be the
Assistant Vice President of MVB Mortgage Corp., an Ohio Corporation, which
executed the within instrument, that said instrument was signed on behalf of said
corporation pursuant to by-laws or a resolution of its Board of Directors and that
he/she acknowledges said instrument to be the free act and deed of said corporation.
___________________________________
G. Shalla Schmidt, Notary Public
Oakland County
State of Michigan
Commission Expires: July 13, 2017
Prepared by and Return To:
C York
MVB Mortgage Corp.
24400 Northwester Hwy
Southfield, MI 48075

